                           Office of Inspector General
                          Corporation for National and
                                   Community Service




          AGREED-UPON PROCEDURES FOR
            CORPORATION FOR NATIONAL
          AND COMMUNITY SERVICE GRANTS
                  AWARDED TO
            VOLUNTEER NEW HAMPSHIRE!

                 OIG REPORT 09-12




                   Prepared by:

           Mayer Hoffman McCann P.C.
       Conrad Government Services Division
        3 Bethesda Metro Center, Suite 600
               Bethesda, MD 20814




This report was issued to Corporation management on April 29, 2009.
Under the laws and regulations governing audit follow-up, the Corporation
is to make final management decisions on the report’s findings and
recommendations no later than October 28 2009, and complete its
corrective actions by April 29, 2010. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                        OFFICE OF INSPECTOR GENERAL
                                         April 29, 2009


TO:           Lois Nembhard
              Acting Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      Report 09-12, Agreed-Upon Procedures for Corporation for National and
              Community Service Grants Awarded to Volunteer New Hampshire (VNH)


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann P.C. (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to VNH. The contract required MHM to conduct its review in accordance with
generally accepted government auditing standards.

MHM is responsible for the attached report, dated April 17, 2009, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Claimed
and Questioned Costs, supporting schedules, and conclusions on the effectiveness of
internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by October 28, 2009. Notice of final action is due by April 29, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Rick
Samson at (202) 606-9380.

Attachment

cc:   James Doremus, Chairman, VNH Audit & Finance Committee
      Tim Dupre, VNH Executive Director & NH AmeriCorps Director
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Claire Moreno, Senior Grants Officer
      Sherry Blue, Audit Resolution Coordinator
      Randal Vellocido, Shareholder, MHM




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps   AmeriCorps   Learn and Serve America
                    AGREED-UPON PROCEDURES FOR
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                         GRANTS AWARDED TO
                      VOLUNTEER NEW HAMPSHIRE!


                                  Table of Contents

                                                                             Page

Executive Summary                                                             1

Independent Accountants’ Report on Applying Agreed-Upon Procedures            4

   Results – Costs Claimed                                                    5

      Consolidated Schedule of Award and Claimed Costs                        6

      Notes to Consolidated Schedule of Award and Claimed Costs               6

      Exhibit A: Schedule of Award and Claimed Costs by Grant                 7

      Schedule A-1 – Schedule of Award and Claimed Costs, Volunteer New       8
                     Hampshire!

      Schedule A-2 – Schedule of Award and Claimed Costs, Student             9
                     Conservation Association, Inc.

      Schedule A-3 – Schedule of Award and Claimed Costs, New Hampshire       10
                     Coalition Against Domestic and Sexual Violence

   Results – Compliance and Internal Control                                  11

   Exhibit B: Consolidated Schedule of Recommendations and Questioned         24
              Costs

   Appendix A – Corporation for National and Community Service Response to
                Draft Report

   Appendix B – Volunteer New Hampshire Response to Draft Report

   Appendix C – Subgrantee, Student Conservation Association Response to
                Draft Report

   Appendix D – Subgrantee, Coalition Against Domestic & Sexual Violence
                Response to Draft Report
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures (AUP) on grant costs claimed and grant compliance for Corporation-funded
Federal assistance provided to Volunteer New Hampshire (VNH).

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$234,809 and education awards of $1,374. A questioned cost is an alleged violation or
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; a finding that, at the time of testing, such cost
was not supported by adequate documentation. Our cost testing results are summarized in
the Consolidated Schedule of Award and Claimed Costs.

VNH claimed total costs of $2,899,631 from January 1, 2006, through June 30, 2008. As a
result of testing a judgmental sample of transactions, we questioned costs claimed as
shown below.

                                               Grant             Federal           Education
                Description                   Number              Share             Award

   Improper Recording and Reporting
     of Costs                               04CAHNH001       $     15,447      $               -
   Improper Recording and Reporting
     of Costs                               07CAHNH001             10,144                      -
   Unsupported Costs                        07CAHNH001                967                      -
   Improper Recording and Reporting
     of Costs                               06CDHNH001             10,350                      -
   Unsupported Costs                        06CDHNH001                270                      -
   Compelling Personal Circumstances
    Not Documented                          03AFHNH002                     -            1,374
   Unsupported Payroll Costs                04CAHNH001             56,616                      -
   Unsupported Payroll Costs                07CAHNH001             92,151                      -
   Unapproved Budget Costs                  06AFHNH001             36,049                      -
   Unapproved Budget Costs                  06ACHNH001              8,975                      -
   Unallowable Costs                        06ACHNH001              3,840                      -

                                    Total                  $      234,809      $        1,374

We also found unallowable match costs of $81,843, but did not question these costs
because, after subtracting these unallowable costs, VNH would still meet its match
obligation. Our procedures did not result in questioned costs for Competitive Grant No.


                                              1
03ACHNH001 and Program Development & Technical Assistance (PDAT) Grant No.
06PTHNH001.

AmeriCorps members who successfully complete their terms of service are eligible for
education awards and accrued interest awards funded by the National Service Trust. These
award amounts are not funded by Corporation grants or claimed by VNH. However, as part
of our AUP, we determined the effect of findings on member eligibility for education and
accrued interest awards. Using the same criteria described above, we questioned
education awards of $1,374 due to non-compliance with program requirements.

Details related to these questioned costs and awards appear in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures that follows.

The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

       Lack of controls or controls not implemented over recording and reporting of Federal-
        share costs;

       Late submission of Financial Status Reports (FSRs), member enrollment and exit
        forms, progress reports, and Periodic Expense Reports (PERs); and

       Lack of adequate procedures and controls to ensure service hours are recorded after
        contracts are signed; subgrantees maintain documentation of members’ compelling
        personal circumstances; and member contracts are accurately completed.


Agreed-Upon-Procedures Scope

We performed our AUP during the period August 19 through December 10, 2008, and
covered the allowability, allocability, and reasonableness of costs claimed by VNH between
January 1, 2006, and June 30, 2008. We also performed tests to determine VNH’s
compliance with grant terms and provisions for the following programs:

           Program           Award Number             Award Period           Testing Period
Administrative               04CAHNH001           01/01/04 to 12/31/06   01/01/06 to 12/31/06
Administrative               07CAHNH001           01/01/07 to 12/31/09   01/01/07 to 06/30/08
PDAT                         06PTHNH001           01/01/06 to 12/31/08   01/01/06 to 06/30/08
Disability                   06CDHNH001           01/01/06 to 12/31/08   01/01/06 to 06/30/08
AmeriCorps – Formula         03AFHNH002           09/01/03 to 09/30/06   04/01/06 to 09/30/06
AmeriCorps – Formula         06AFHNH001           09/01/06 to 09/30/09   09/01/06 to 03/31/08
AmeriCorps – Competitive     03ACHNH001           09/01/03 to 09/30/06   04/01/06 to 09/30/06
AmeriCorps – Competitive     06ACHNH001           09/01/06 to 09/30/09   09/01/06 to 03/31/08

The procedures performed, based on the OIG’s AUP program dated July 2008, have been
included in the Independent Accountants’ Report on Applying Agreed-Upon Procedures
section of this report.



                                              2
Background

The Corporation supports a range of national and community service programs that provide
an opportunity for individuals (members) to serve full - or part-time. The Corporation funds
opportunities for Americans to engage in service that fosters civic responsibility and
strengthens communities. It also provides educational opportunities for those who have
made a substantial commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). The AmeriCorps Program,
the largest of the initiatives, is funded in two ways: grants through the State Commissions,
and direct funding to applicants, including funding under the National Direct Program.

VNH, based in Concord, New Hampshire, is a 501c(3) organization established to promote
the tradition of volunteerism and ethic of service in New Hampshire. It is a result of the
merger of the former Governor’s Council on Volunteerism, the New Hampshire Office of
Volunteerism, and the New Hampshire Commission for National and Community Service.
VNH has six employees and contracts with the New Hampshire Higher Education
Assistance Foundation for a finance manager.

VNH awards Corporation funds to subgrantees throughout the State of New Hampshire. Its
accounting system allocates all costs under the Corporation grant by cost centers and
segregates between Federal and grantee shares. On a semi-annual basis, the finance
manager completes the required FSRs by using the cost data in the organization’s general
ledger and the PERs submitted by the subgrantees.

VNH received Corporation grant funds of $6,991,547, and claimed Federal costs of
$2,899,631, for the period January 1, 2006, through June 30, 2008.


Exit Conference

The contents of this report were discussed with representatives from VNH and the
Corporation at an exit conference held in Concord, New Hampshire, on February 5, 2009.
In addition, a draft of this report was provided to officials of VNH and the Corporation for
their comment on March 03, 2009. VNH and two subgrantees generally agreed with the
issues within each finding and the Corporation deferred its response until after it reviews the
audit working papers and VNH’s corrective action plans. We summarized their comments in
the appropriate sections of this report, and have included the responses verbatim as
Appendices A, B, C, and D..




                                              3
               3 Bethesda Metro Center, Suite 600
               Bethesda, MD 20814-6332
               301-951-3636
               301-951-0425
               www.mhm-pc.com

 Inspector General
 Corporation for National and Community Service

                            INDEPENDENT ACCOUNTANTS’ REPORT ON
                             APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below for costs claimed between January 1,
 2006, and June 30, 2008. The procedures were agreed to by the OIG solely to assist it in
 grant-cost and compliance testing of Corporation-funded Federal assistance provided to
 VNH for the awards and periods listed below. The combined award period is September 1,
 2003, to December 31, 2009. This AUP engagement was performed in accordance with
 standards established by the American Institute of Certified Public Accountants and
 generally accepted government auditing standards. The sufficiency of these procedures is
 solely the responsibility of the OIG. Consequently, we make no representation regarding
 the sufficiency of the procedures described below, either for the purpose for which this
 report has been requested or any other purpose.

        Program                Award Number            Award Period           Testing Period
Administrative                 04CAHNH001          01/01/04 to 12/31/06   01/01/06 to 12/31/06
Administrative                 07CAHNH001          01/01/07 to 12/31/09   01/01/07 to 06/30/08
PDAT                           06PTHNH001          01/01/06 to 12/31/08   01/01/06 to 06/30/08
Disability                     06CDHNH001          01/01/06 to 12/31/08   01/01/06 to 06/30/08
AmeriCorps – Formula           03AFHNH002          09/01/03 to 09/30/06   04/01/06 to 09/30/06
AmeriCorps – Formula           06AFHNH001          09/01/06 to 09/30/09   09/01/06 to 03/31/08
AmeriCorps – Competitive       03ACHNH001          09/01/03 to 09/30/06   04/01/06 to 09/30/06
AmeriCorps – Competitive       06ACHNH001          09/01/06 to 09/30/09   09/01/06 to 03/31/08

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not
 express such an opinion. Had we performed other procedures, other matters might have
 come to our attention that would have been reported to you.

 The procedures that we performed included obtaining an understanding of VNH and its
 subgrantee site monitoring process; reconciling Federal-share and match costs claimed to
 the accounting system; reviewing member files to verify that the records supported member
 eligibility to serve and the allowability of living allowances and education awards; testing
 compliance with selected grant provisions and award terms and conditions; and testing
 claimed grant costs and match costs to ensure: (i) proper recording of grant costs; (ii) that
 the match requirement was met; and (iii) costs were allowable and supported in accordance
 with applicable regulations, OMB circulars, grant provisions, and award terms and
 conditions. Grant drawdowns were compared for consistency to the Federal share reported
 on FSRs submitted by VNH.




                                               4
                                Results – Costs Claimed

Cost testing results are summarized in the schedules and exhibits below. The schedules
and exhibits also identify instances of questioned education awards. These awards were
not funded by the Corporation grant, and accordingly are not included in claimed costs.
However, as part of our AUP, we determined the effect of member service hours and
eligibility exceptions on these awards.




                                            5
                          Consolidated Schedule of Award and Claimed Costs
                        Corporation for National and Community Service Awards
                                       Volunteer New Hampshire!
                                                                                          Questioned
                                          Approved      Audit Period        Questioned    Education
Award Number        Program                Budget     Claimed Costs *         Costs        Awards      Reference
03AFHNH002      AmeriCorps-
                 Formula              $ 1,243,995           $    200,987    $         -    $   1,374   Exhibit A
06AFHNH001      AmeriCorps –
                 Formula                  1,083,606              867,634         36,049                Exhibit A
03ACHNH001      AmeriCorps-
                 Competitive              1,551,258              177,102              -            -   Exhibit A
06ACHNH001      AmeriCorps-
                 Competitive              2,004,501             1,083,484        12,815            -   Exhibit A

                Total AmeriCorps      $ 5,883,360           $ 2,329,207      $ 48,864      $   1,374

04CAHNH001      Administrative        $     427,504         $     72,063     $ 72,063      $       -   Exhibit A

07CAHNH001      Administrative              300,895              219,794        103,262            -   Exhibit A

06PTHNH001      PDAT                        275,500              221,500              -            -   Exhibit A

06CDHNH001      Disability                  104,288               57,067         10,620            -   Exhibit A

                             Totals   $ 6,991,547           $ 2,899,631      $ 234,809     $   1,374


 *   For the Formula and Competitive grants, the claimed costs will not agree to the amounts
     reported in Exhibit A on the following page because the amounts reported by VNH in its FSRs
     did not reconcile to the amounts reported by the subgrantees in their PERs. The claimed costs
     reported above were obtained from the FSRs and the claimed costs reported in Exhibit A were
     obtained from the subgrantees’ PERs.

                     Notes to Consolidated Schedule of Award and Claimed Costs

        Basis of Accounting
        The accompanying schedules have been prepared to comply with provisions of the grant
        agreements between the Corporation and VNH. The information presented in the schedules
        has been prepared from reports submitted by VNH to the Corporation and accounting
        records of VNH and its subgrantees. The basis of accounting used in the preparation of
        these reports differs from accounting principles generally accepted in the United States of
        America as discussed below.

        Equipment
        Equipment should not be purchased and claimed under Federal or grantee share of cost.
        However, during our testing period, we noted that VNH purchased equipment and reported
        a portion of the cost as Federal share (See Finding 1).

        Inventory
        Minor materials and supplies are charged to expenses during the period of purchase.


                                                        6
                                                                                           EXHIBIT A

                               Schedule of Awards and Claimed Costs by Grant
                                         Volunteer New Hampshire!
                                     January 1, 2006, to June 30, 2008

                                                                                     Questioned
                                                            Claimed    Questioned    Education
                      Awards                                Costs **     Costs        Awards        Reference

              03AFHNH002 – Formula
NH Coalition Against Domestic and Sexual Violence *     $  64,043        $       -     $     - Schedule A-3
Student Conservation Association, Inc. *                  117,803            _   -       1,374 Schedule A-2
                                          Sub-total     $ 181,846        $       -     $ 1,374

              06AFHNH001 – Formula
Community Action Belknap-Merrimack Counties, Inc.       $ 157,472        $      -      $       -
NH Coalition Against Domestic and Sexual Violence *       366,461          36,049              - Schedule A-3
                                          Sub-total     $ 523,933        $ 36,049

             03ACHNH001 – Competitive
Community Action Belknap-Merrimack Counties, Inc.       $  70,706        $       -     $       -
City Year, Inc.                                           122,507                -             -
Plus Time New Hampshire                                    85,053                -         _   -
                                        Sub-total       $ 278,266        $       -     $       -

             06ACHNH001 – Competitive
Student Conservation Association, Inc. *                $ 407,619        $ 12,815      $       - Schedule A-2
City Year, Inc.                                           899,521               -              -
Plus Time New Hampshire                                   161,306               -          _   -

                                            Sub-total   $1,468,446       $ 12,815      $       -

                                  Subgrantees’ Total    $2,452,491       $ 48,864      $ 1,374

                Commission Awards
Administrative (04CAHNH001)                             $  72,063        $ 72,063      $       -   Schedule A-1
Administrative (07CAHNH001)                               219,794         103,262              -   Schedule A-1
PDAT (06PTHNH001)                                         221,500               -              -   Schedule A-1
Disability (06CDHNH001)                                    57,067          10,620              -   Schedule A-1
                                           Sub-Total    $ 570,424        $185,945      $       -

                                           VNH Total    $3,022,915       $234,809      $ 1,374

 * Selected for Application of Agreed-Upon Procedures.
 ** For the Formula and Competitive grants, the claimed costs will not agree to the amounts reported in
    the Consolidated Schedule of Award and Claimed Costs on the previous page because the amounts
    reported by VNH in its FSRs did not reconcile to the amounts reported by the subgrantees in their
    PERs. The claimed costs reported above were obtained from the subgrantees’ PERs, and the
    claimed costs reported in the Consolidated Schedule were obtained from FSRs submitted by VNH.

                                                        7
                                                                               Schedule A-1
                                                                                 Page 1 of 1

                         Schedule of Award and Claimed Costs
                           Volunteer New Hampshire! (VNH)

        Awards 04CAHNH001, 07CAHNH001, 06PTHNH001, and 06CDHNH001


                                                                                  Reference

Corporation Awards                                                $1,108,187         Note 1

Claimed Federal Costs                                             $ 570,424          Note 2

Questioned Costs:
   Improper Recording and Reporting of Costs:
       (04CAHNH001)                                   $15,447                        Note 3
       (07CAHNH001)                                    10,144                        Note 3
       (06CDHNH001)                                    10,350                        Note 3
   Unsupported Payroll Costs
       (04CAHNH001)                                    56,616                        Note 4
       (07CAHNH001)                                    92,151                        Note 4
   Unsupported Costs
       (07CAHNH001)                                       967                       Note 5
       (06CDHNH001)                                       270                       Note 5
     Total Questioned Costs                                       $   185,945       Note 6


Notes

1. The amount shown represents the total funding to VNH according to the grant award
   documents.

2. Claimed costs represent VNH’s reported Federal expenditures for the period January 1,
   2006, through June 30, 2008.

3. Thirty Federal-share cost transactions were not properly charged to the grants (see
   Finding 1).

4. The executive director’s salary was not properly supported (see Finding 1).

5. Five Federal-share cost transactions were not properly supported (see Finding 1).

6. The questioned costs identified represent 62.5 percent of a sampled total of $59,463.
   Questioned unsupported payroll costs were not part of the sample and are excluded
   from the 62.5 percent.




                                             8
                                                                          Schedule A-2
                                                                            Page 1 of 1

                       Schedule of Award and Claimed Costs
                    Student Conservation Association, Inc. (SCA)

                  Awards 03AFHNH0020002 and 06ACHNH0010001


                                                                             Reference

Subgrantee Awards                                             $890,400          Note 1

Claimed Federal Costs                                         $525,422          Note 2

Questioned Costs:
   Unapproved Budget Costs (06ACHNH0010001)         $8,975                      Note 3
   Unallowable Costs (06ACNH0010001)                 3,840                      Note 4
    Total Questioned Costs                                    $ 12,815          Note 6

Questioned Education Awards:
   Compelling Personal Circumstances Not Documented
       (03AFHNH0020002)                                       $   1,374         Note 5


Notes

1. The amount shown represents the total funding to SCA according to the subgrantee
   agreements.

2. Claimed costs represent SCA’s reported Federal expenditures for the period April 1,
   2006, through June 30, 2008.

3. SCA exceeded the Federal Section I (Program Operating Costs) budget by $8,975.
   SCA used available Section II (Member Costs) funds for program operating costs (see
   Finding 1).

4. Equipment greater than $5,000 was purchased without being included in the approved
   budget or subsequently approved in writing by the Corporation prior to the purchase.
   SCA paid $8,000 for the purchase of a plow truck and $3,840 was claimed as a Federal
   cost (see Finding 1).

5. One member was given a partial education award, but did not have any compelling
   personal circumstances documented (see Finding 3).

6. The questioned costs identified represent 5.1 percent of a sampled total of $74,979.
   Questioned unapproved budget costs were not part of the sample and are excluded from
   the 5.1 percent.



                                           9
                                                                         Schedule A-3
                                                                           Page 1 of 1

                    Schedule of Award and Claimed Costs
    New Hampshire Coalition Against Domestic and Sexual Violence (NHCADSV)

                    Awards 03AFHNH0020001 and 06AFHNH0010002


                                                                              Reference

Subgrantee Awards                                                  $989,405     Note 1

Claimed Federal Costs                                              $430,504     Note 2

Questioned Costs:
   Unapproved Budget Costs (06AFHNH0010002)                        $ 36,049     Note 3


Notes

1. The amount shown represents the total funding to NHCADSV according to the
   subgrantee agreements.

2. Claimed Federal costs represent NHCADSV’s reported expenditures for the period April
   1, 2006, through June 30, 2008.

3. NHCADSV exceeded the Federal Section I (Program Operating Costs) budget by
   $36,049. NHCADSV used unused Section II (Member Costs) funds for program
   operating costs (see Finding 1).




                                          10
                           Results - Compliance and Internal Control

Finding No. 1 – Lack of Controls or Controls Not Implemented Over Recording and
Reporting of Federal-share Costs


Improper Recording and Reporting of Costs

VNH did not have proper procedures and controls implemented to ensure that all costs,
direct and indirect, were charged to the proper grants. Instead, Federal-share costs were
arbitrarily charged to a group of grants that VNH officials believed the costs would benefit.
We questioned a total of 30 transactions of the 79 tested.

Eighteen of the 79 Federal-share cost transactions reviewed at VNH were indirect costs that
were not allocated to the appropriate grants. VNH could not provide documentation to
support how these Federal-share cost transactions should have been allocated to the
appropriate grants. VNH officials indicated that they allocated the costs randomly to any of
the grants as they believed that all grants were benefiting. Therefore, we questioned the
total value of the 18 transactions, resulting in questioned costs of $14,705 for Administrative
grant (04CAHNH001), $8,114 for Administrative grant (07CAHNH001), and $1,633 for
Disability grant (06CDHNH001).

Twelve of the 79 Federal-share cost transactions were direct costs that were not claimed to
the proper program.       Therefore, we questioned $742 for Administrative grant
(04CAHNH001), $2,030 for Administrative grant (07CAHNH001), and $8,717 for Disability
grant (06CDHNH001).

VNH believed that all costs incurred benefited all of its grants, including one non-
Corporation Federal grant that they interpreted as assisting in the creation of national and
community service programs. Therefore, VNH determined it was not necessary to develop
an allocation methodology to allocate the indirect costs to the appropriate grants and direct
costs did not need to be further scrutinized to determine the proper grant to be reported
against.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A., General
Principles, Section A.4, Allocable Costs, states:

           a. A cost is allocable to a particular cost objective, such as a grant, contract,
           project, service, or other activity, in accordance with the relative benefits
           received. A cost is allocable to a Federal award if it is treated consistently
           with other costs incurred for the same purpose in like circumstances and if it:
           (1) Is incurred specifically for the award.
           (2) Benefits both the award and other work and can be distributed in
           reasonable proportion to the benefits received, or
           (3) Is necessary to the overall operation of the organization, although a direct
           relationship to any particular cost objective cannot be shown.

           b. Any cost allocable to a particular award or other cost objective under these
           principles may not be shifted to other Federal awards to overcome funding
                                                  11
           deficiencies, or to avoid restrictions imposed by law or by the terms of the
           award.

OMB Circular A-122, Attachment A., General Principles, Section B, Direct Costs, states:

B. Direct Costs
1. Direct costs are those that can be identified specifically with a particular final cost
objective, i.e., a particular award, project, service, or other direct activity of an organization.
However, a cost may not be assigned to an award as a direct cost if any other cost incurred
for the same purpose, in like circumstance, has been allocated to an award as an indirect
cost. Costs identified specifically with awards are direct costs of the awards and are to be
assigned directly thereto. Costs identified specifically with other final cost objectives of the
organization are direct costs of those cost objectives and are not to be assigned to other
awards directly or indirectly.

2. Any direct cost of a minor amount may be treated as an indirect cost for reasons of
practicality where the accounting treatment for such cost is consistently applied to all final
cost objectives.

*          *       *

C. Indirect Costs
1. Indirect costs are those that have been incurred for common or joint objectives and
cannot be readily identified with a particular final cost objective. Direct cost of minor amounts
may be treated as indirect costs under the conditions described in subparagraph B.2. After
direct costs have been determined and assigned directly to awards or other work as
appropriate, indirect costs are those remaining to be allocated to benefiting cost objectives.
A cost may not be allocated to an award as an indirect cost if any other cost incurred for the
same purpose, in like circumstances, has been assigned to an award as a direct cost.

Unsupported Costs

Five of the 79 Federal-share cost transactions we tested were not properly supported. As a
result, we questioned $967 for Administrative grant (07CAHNH001) and $270 for Disability
grant (06CDHNH001). VNH did not know why the supporting documents could not be
located.

Criteria

45 C.F R. § 2543.21 Grants and Other Agreements with Institutions of Higher Education,
Hospitals and Other Non-Profit Organizations, Subpart C, Post-Award Requirements,
Standards for financial management systems, states:

           (b) Recipients' financial management systems shall provide for the following.

               (1) Accurate, current and complete disclosure of the financial results of
                   each federally-sponsored project or program in accordance with the
                   reporting requirements set forth in § 2543.51.

               *   *   *

                                                 12
              (7) Accounting records including cost accounting records that are
                  supported by source documentation.

2006 AmeriCorps General Provisions, Section V B., Financial Management Standards
states in part:

           1. General. The grantee must maintain financial management systems that
           include standard accounting practices, sufficient internal controls, a clear
           audit trail and written cost allocation procedures, as necessary. Financial
           management systems must be capable of distinguishing expenditures
           attributable to this grant from expenditures not attributable to this grant. The
           systems must be able to identify costs by programmatic year and by budget
           category and to differentiate between direct and indirect costs or
           administrative costs.

Cost Reconciliation

The financial records in support of VNH’s claimed costs for all of the subgrantees on two
formula and two competitive grants did not agree with costs claimed on the FSRs. VNH
stated that it could not determine the cause.

VNH lacked controls to ensure that it correctly entered the data from subgrantee PERs into
its financial system. Subgrantees submit electronic PERs to VNH which, in turn, enters the
data into its systems. These amounts are then accumulated for all subgrantees and entered
on the aggregate FSR submitted to the Corporation. The FSRs for the two formula grants
were overstated, while the FSRs for the two competitive grants were understated. The
under and over amounts did not cancel each other out. The net difference did not increase
the cost to the government; therefore, we did not question any costs.

Criteria

2006 AmeriCorps General Provisions, Section V.B. Financial Management Standards,
states in part:

           1. General. The grantee must maintain financial management systems that
           include standard accounting practices, sufficient internal controls, a clear
           audit trail and written cost allocation procedures, as necessary. Financial
           management systems must be capable of distinguishing expenditures
           attributable to this grant from expenditures not attributable to this grant. The
           systems must be able to identify costs by programmatic year and by budget
           category and to differentiate between direct and indirect costs or
           administrative costs.

Payroll

While performing the payroll testing, we found that the executive director’s salary was being
allocated 100 percent to Corporation grants, even though we were aware that part of his
time was utilized to support the Citizen Corps program, a program supported by a
Department of Homeland Security (DHS) grant that flows through the New Hampshire
Department of Safety. VNH could not provide documentation to support the allocation of the
executive director’s salary to the different programs; therefore, we questioned his total
                                                 13
salary of $56,616 for 2006, (Administrative grant 04CAHNH001) and $92,151 for 2007 and
2008 (Administrative grant 07CAHNH001). The amount for 2008 includes salary paid until
June 30, 2008, the end of our testing period

VNH does not require its employees to complete a timesheet or an effort report. VNH
believes that the executive director’s time equally benefits all of the Corporation grants, and
that the Citizen Corps program benefits the Corporation grants because it assists in the
creation of national and community service programs. Therefore, VNH did not believe a
documented allocation of the executive director’s time to all allowable grants was required.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B., Selected
Items of Cost, Section 8, Compensations for Personal Services, states in part:

           m. Support of salaries and wages.

                 (1) Charges to awards for salaries and wages, whether treated as direct costs
                 or indirect costs, will be based on documented payrolls approved by a
                 responsible official(s) of the organization. The distribution of salaries and
                 wages to awards must be supported by personnel activity reports, as
                 prescribed in subparagraph (2), except when a substitute system has been
                 approved in writing by the cognizant agency. (See subparagraph E.2 of
                 Attachment A.)
                 (2) Reports reflecting the distribution of activity of each employee must be
                 maintained for all staff members (professionals and nonprofessionals) whose
                 compensation is charged, in whole or in part, directly to awards. In addition,
                 in order to support the allocation of indirect costs, such reports must also be
                 maintained for other employees whose work involves two or more functions
                 or activities if a distribution of their compensation between such functions or
                 activities is needed in the determination of the organization's indirect cost
                 rate(s) (e.g., an employee engaged part-time in indirect cost activities and
                 part-time in a direct function). Reports maintained by non-profit organizations
                 to satisfy these requirements must meet the following standards:

                 (a) The reports must reflect an after-the-fact determination of the actual
                 activity of each employee. Budget estimates (i.e., estimates determined
                 before the services are performed) do not qualify as support for charges to
                 awards.

                 (b) Each report must account for the total activity for which employees are
                 compensated and which is required in fulfillment of their obligations to the
                 organization.

                 (c) The reports must be signed by the individual employee, or by a
                 responsible supervisory official having first hand knowledge of the activities
                 performed by the employee, that the distribution of activity represents a
                 reasonable estimate of the actual work performed by the employee during the
                 periods covered by the reports.


                                                14
              (d) The reports must be prepared at least monthly and must coincide with one
              or more pay periods.

Unused Member Support Costs

Both of the VNH subgrantees we tested exceeded the Federal Section I (Program Operating
Costs) budget by utilizing unused Section II (Member Support Cost) funds for program
operating costs.

NHCADSV received approval from VNH to use the Section II funds; however, required
approval was not obtained from the Corporation. Therefore, we questioned the program
operating costs of $36,049 for Formula grant 06AFHNH001.

SCA believed that funds could be reallocated without written approval from the Corporation
as long as there was a budget variance of 10 percent or less. However, SCA did not realize
that funds could not be reallocated between Section I and Section II costs. Therefore, we
questioned the program operating costs of $8,975 for Competitive grant 06ACHNH001.

Criteria

The 2006 AmeriCorps Grant Special Provisions, Section IV. M., Budget and
Programmatic Changes, states in part:

           3. Budgetary Changes. The grantee must obtain the prior written
              approval of the Corporation’s Office of Grants Management before
              deviating from the approved budget in any of the following ways:

                    a. Reallocation of Funds from the “Member Support Cost”
                        category to other categories of the approved budget.


Unallowable Costs

One of the 60 Federal-share cost transactions at SCA was not allowable under the
AmeriCorps grant. This cost was for equipment costing greater than $5,000 and was not
specifically included in the approved budget or subsequently approved in writing by the
Corporation prior to the purchase. SCA paid $8,000 for a plow truck and $3,840 of this
amount was claimed as Federal-share cost; therefore, we questioned $3,840 claimed to
Competitive grant No. 06ACHNH001.

Criteria

The 2006 AmeriCorps Special Provisions, Section IV. M., Budget and Programmatic
Changes, states in part:

           3. Budgetary Changes. The grantee must obtain the prior written
              approval of the Corporation’s Office of Grants Management before
              deviating from the approved budget in any of the following ways:

                     *      *       *

                                            15
               c. Purchases of Equipment over $5,000 using grant funds, unless
                   specified in the approved application and budget.

Recommendations

We recommend that the Corporation:

   1.a.   Resolve the questioned costs of $234,809, and recover disallowed costs;

   1.b.   Ensure VNH develops and documents controls necessary to ensure that PERs
          submitted by its subgrantees are correctly entered into VNH’s financial systems
          and reported on its FSRs; and that it performs a reconciliation of the financial
          system to the FSRs;

   1.c.   Ensure that VNH maintains adequate support for costs claimed and provides
          training to its subgrantees to ensure the development of control procedures so that
          only allowable and documented costs are claimed;

   1.d.   Ensure that VNH establishes and uses proper allocation methodology to charge
          indirect costs to the appropriate grants;

   1.e.   Ensure that VNH establishes controls and trains its subgrantees to obtain written
          Corporation approval before transferring funds between Sections I and II; and

   1.f.   Ensure that VNH develops and documents controls necessary to allocate
          personnel costs to its grants.

Commission’s Response

Regarding the “Improper Recording and Reporting of Costs”, VNH stated that it has created
a system to allocate indirect costs to appropriate grants, including the non-corporation grant
that is based on staff hours attributed to specific grants.

Regarding the “Unsupported Costs”, VNH stated that it requested a spreadsheet of the
exact questioned costs so it could continue to research those costs and stated that the
spreadsheet has not yet been received. VNH stated that, although receipts may not have
been attached to the purchase order, descriptions of the cost with a cashed check are
available, or a credit card statement identifying the purchase cost and description are
available. For each cash transaction, there is a purchase order that has appropriate
supporting documentation. VNH also stated that although there could be many reasons for
missing documentation, not having a financial officer on staff creates an environment where
energy is not dedicated to fiscal follow up, resulting in the occasional missing backup
document. Finally, VNH stated that the VNH Board of Directors has established a finance
and audit committee that will provide the additional oversight of the systems so information
and documentation are provided immediately.

Regarding the “Cost Reconciliation” issue, VNH stated that this also will be a responsibility
of the finance and audit committee, as it appears the system is in place and it is generally
sound. However, improvement is needed in reviewing information to ensure it is accurately
recorded.
                                             16
Regarding the “Payroll” issue, VNH stated that it was the practice, based on the previous
audit, for the administrative grant to provide the support to the other two, including charging
100 percent of the executive director’s salary. VNH stated that it has created timesheets
that identify grant allocations for salaries. Additionally, VNH stated that the percentage of
time dedicated to Citizen Corps is minimal. It averages approximately 4 hours per week and
these 4 hours are provided above and beyond the 45 to 60 hours per week that are
dedicated to the Corporation’s grants. As a result of the audit, VNH and the Department of
Safety have agreed to allocate a portion of the Executive Director’s salary, based on 4 hours
per week, to the Citizen Corps grant.

Regarding the SCA “Unused Member Support Costs”, VNH stated that this occurred due to
a misunderstanding of allowable budget variances. The person responsible for preparing
the PER did not realize that funds could not be reallocated between Section I (Program
Operating) and Section II (Member) costs. SCA will ensure that staff preparing the quarterly
PERs understands that reallocation of monies between sections is not allowed without prior
written approval from the Corporation.

Regarding the “Unallowable Costs” identified in the finding, VNH stated that, at the time, the
cost was believed to have been covered in the budget under rent and utilities, but the
required written approval does not appear to have been requested. In the future, SCA will
ensure that proper written approval is obtained from the Corporation prior to any non-
budgeted equipment or supply purchase exceeding $5,000.

Auditor’s Comment

The Corporation should consider the actions proposed by VNH and follow up to ensure that
they are implemented and effective. Regarding the unsupported costs issue, we maintain
our position that we provided VNH with the details of all the sampled transactions during our
fieldwork and again provided the information in an e-mail on October 29, 2009. Cancelled
(cashed) checks and purchase orders are internally generated and are not sufficient
evidence to demonstrate the transaction is valid. However, an externally generated invoice
is generally sufficient source documentation to support the item purchased and the cost.

We also maintain our position regarding the payroll costs. As OMB Circular A-122 clearly
states “Reports reflecting the distribution of activity of each employee must be maintained
for all staff members (professionals and nonprofessionals) whose compensation is charged,
in whole or in part, directly to awards.” Additionally, a work week in excess of 40 hours is
not relevant for an exempt employee because the work week is not defined as 40 hours.
Time charged to any Federal grant should be based upon actual effort, supported by an
activity based timesheet.


Finding No. 2: Late Submission of Financial Status Reports (FSRs), Member
Enrollment and Exit Forms, Progress Reports (GPRs), and Periodic Expense Reports
(PERs)
 VNH and the two subgrantees we tested did not always submit required reports by the due
dates, as shown in the table below.



                                              17
    Grantee/Subgrantee                Number & Type of Reports Submitted Late

                                  9 of 23 FSRs
              VNH
                                  4 of 4 GPRs – Never Submitted

                                  2 of 2 PERs
           NHCADSV                5 of 15 tested enrollment forms
                                  2 of 15 tested exit forms

                                  4 of 17 tested enrollment forms
              SCA
                                  7 of 17 tested exit forms

When subgrantees do not report their PERs to VNH in a timely manner, VNH will not be able
to review, track, and monitor the subgrantees’ activities. In addition, when FSRs and GPRs
are not submitted to the Corporation in a timely manner, the Corporation will not be able to
accurately assess the financial status of the grants and its progress to date.

VNH’s executive director attributed the delay in submitting reports to the Corporation to the
lack of staff.

NHCADSV indicated that the PERs were not submitted to VNH on time because financial
reports containing all reportable expenses were not available until after the PERs
submission deadline. In addition, the NHCADSV program director stated the Member
Enrollment forms were late because the Member Service Agreement forms were not signed
by the host site supervisors in a timely manner, and the Member End-of-Term/Exit forms
were late because NHCADSV was searching for missing timesheets and waiting for other
paperwork to be completed.

SCA staff stated that when they entered the enrollment forms into WBRS, they did not know
the forms needed to be “Approved” before submitting them; therefore, the enrollment forms
were submitted late.

Criteria

The VNH-subgrantee Cooperative Agreement, Section V., Agency Responsibilities, Section
B.4, states:

           At the close of the grant period, a final report detailing actual expenses for
           the program year will be submitted no later than 30 days after the close of
           the grant period (Close Out Report). The final invoice will indicate total
           actual expenditures.

The 2005 (revised in 2006) AmeriCorps Special Provisions, Section IV.N. Reporting
Requirements, states in part:

           1. Financial Status and Progress Reports.

           a. Financial Status Reports. The grantee shall submit semi-annual
              cumulative financial status reports, summarizing expenditures during

                                                18
              the reporting period using eGrants. Financial Status Report deadlines
              are as follows:

                    Due Date                Reporting Period Covered
                     April 30              Start of grant through March 31
                    October 31                 April 1 – September 30

         b. Progress Reports. A grantee Progress Report is due in WBRS on the
            first Monday in December of each year for the period from the start of
            the program year through September 30.

         2. AmeriCorps Member Related Forms.

              The Grantee is required to submit the following documents to the
              National Service Trust at the Corporation on forms provided by the
              Corporation. Grantees and Subgrantees may use WBRS to submit
              these forms electronically. Programs using WBRS must also maintain
              hard copies of the forms.

              a. Enrollment Forms. Enrollment forms must be submitted no later
                 than 30 days after a member is enrolled.
              b. Change of Status Forms. Member Change-of-Status Forms must
                 be submitted no later than 30 days after a member’s status has
                 changed.
              c. Exit/End-of-Term-of-Service Forms. Exit/End-of-Term-of-Service
                 Forms must be submitted no later than 30 days after a member
                 exits the program or finishes his/her term of service.

Recommendations

We recommend that the Corporation:

       2.a.    Ensure that VNH develops effective control procedures so that it meets
               submission deadlines for FSRs and PERs; and

       2.b.    Ensure that VNH provides training that directs subgrantees to develop control
               procedures to ensure PERs and required member enrollment and exit forms
               are completed and submitted in a timely manner.

Commission’s Response

VNH stated that some, if not most, of the late grantee FSRs are attributed to lack of egrants
experience and knowledge. The Board’s finance and audit committee will address the
improvement of systems as one of its oversight responsibilities. Additionally, VNH stated
that it did not find any late progress reports and has not received a response to its request to
the auditors for clarification.

Auditor’s Comment
The Corporation should consider the actions proposed by VNH and follow up to ensure that
they are implemented and effective. Regarding the progress reports, we maintain our
position that we were not provided evidence that they were submitted. This finding has
                                              19
been discussed with VNH at various times during the audit, including a discussion with VNH
after issuance of the draft report. We also stated that the final report will properly reflect the
issue of 4 GPRs not being submitted, instead of the draft version, which reported 12 PERs
were submitted late.


Finding No. 3         Lack of adequate procedures and controls to ensure service hours
                      are recorded after contracts are signed; subgrantees maintain
                      documentation of members’ compelling personal circumstances;
                      and incorrect member contracts.

Pre-Contract Service Hours

The two AmeriCorps subgrantees we tested permitted members to record hours before
member service agreements were signed. Nine of the 15 members tested at NHCADSV did
not sign their member service agreement prior to the start of their service. NHCADSV
stated that member agreements were delayed because it wanted the site supervisors to sign
the agreements at the same time the members sign them. In addition, one of the 15
members tested at NHCADSV did not complete a member service agreement. NHCADSV
stated that this member was not provided a member service agreement due to issues that
arose during her background check. Therefore, this member was not allowed to work at
certain host sites, and eventually left the program before completion.

One of the 17 members reviewed at SCA did not sign the member service agreement prior
to starting service. SCA stated this was due to an oversight.


Criteria

The 2006 AmeriCorps Special Provisions, Section IV.C., Member Enrollment, states
in part:

           1. Member Enrollment Procedures.

              a. An individual is enrolled as an AmeriCorps member when all of the
                 following have occurred:

                   i.     He or she has signed a member contract;
                   ii.    The program has verified the individual's eligibility to serve;
                   iii.   The individual has begun a term of service; and
                   iv.    The program has approved the member enrollment form in
                          WBRS.

              b. Prior to enrolling a member in AmeriCorps, programs make
                 commitments to individuals to serve. A commitment is defined as
                 signing a member contract with an individual or otherwise entering
                 into a legally enforceable commitment as determined by state law.




                                                  20
Compelling Personal Circumstances

One of the 17 members tested at SCA was enrolled as a full-time member and was given a
partial education award but did not have any compelling personal circumstances for early
exit documented in the member file. Therefore, we questioned this member’s pro-rated
education award of $1,374. SCA believes the member was enrolled as a full-time member
by mistake and should have been enrolled as a quarter-time member; therefore, the former
program director awarded this member a partial education award in order to exit the member
from the program.       These circumstances are not allowable compelling personal
circumstances and the National Service Trust should be reimbursed for the partial education
award by the grantee or subgrantee.

Criteria

45 CFR § 2522.230, Under what circumstances may AmeriCorps participants be released
from completing a term of service and what are the consequences?, states:

           An AmeriCorps program may release a participant from completing a term of
           service for compelling personal circumstances as demonstrated by the
           participant, or for cause.

              a. Release for compelling personal circumstances.
                 1. An AmeriCorps program may release a participant upon a
                      determination by the program that the participant is unable to
                      complete the term of service because of compelling personal
                      circumstances.
                 2. A participant who is released for compelling personal
                      circumstances and who completes at least 15 percent of the
                      required term of service is eligible for a pro-rated education award.
                 3. The participant has the primary responsibility for demonstrating
                      that compelling personal circumstances prevent the participant
                      from completing the term of service.
                 4. The program must document the basis for any determination that
                      compelling personal circumstances prevent a participant from
                      completing a term of service.
                 5. Compelling personal circumstances include:
                    i.    Those that are beyond the participant’s control, such as, but
                          not limited to:
                          A. A participant’s disability or serious illness;
                          B. Disability, serious illness, or death of a participant’s family
                              member if this makes completing a term unreasonably
                              difficult or impossible; or
                          C. Conditions attributable to the program or other wise
                              unforeseeable and beyond the participant’s control, such
                              as a natural disaster, a strike, relocation of a spouse, or
                              the nonrenewal or premature closing of a project or
                              program, that make completing a term unreasonably
                              difficult or impossible;
                   ii.    Those that the Corporation, has for public policy reasons,
                          determined as such, including:
                          A. Military service obligations;
                                                 21
                           B. Acceptance by a participant of an opportunity to make a
                              transition from welfare to work; or
                           C. Acceptance of an employment opportunity by a participant
                              serving in a program that includes in its approved
                              objectives the promotion of employment among its
                              participants.


Incorrect Contracts

The member contracts for two of the 17 members tested at SCA did not have all required
elements as they did not specify the proper level of enrollment. The first member’s service
agreement stated that the member was enrolled in a half-time capacity; however WBRS
indicated that the member was enrolled full-time. The second member’s service agreement
stated that the individual was enrolled in a quarter-time capacity, but WBRS indicated full-
time. SCA stated that both instances were due to clerical errors. These member contracts
did not comply with the AmeriCorps Special Provisions.

Criteria

The 2006 AmeriCorps Special Provisions, Section IV.C. Member Enrollment, states
in part:

           1. Member Enrollment Procedures.

              a. An individual is enrolled as an AmeriCorps member when all of the
                 following have occurred:

                   i.     He or she has signed a member contract;
                   ii.    The program has verified the individual's eligibility to serve;
                   iii.   The individual has begun a term of service; and
                   iv.    The program has approved the member enrollment form in
                          WBRS.

              b. Prior to enrolling a member in AmeriCorps, programs make
                 commitments to individuals to serve. A commitment is defined as
                 signing a member contract with an individual or otherwise entering
                 into a legally enforceable commitment as determined by state law.

Recommendations

We recommend that the Corporation:

           3.a.   Resolve the questioned partial education award of $1,374, and recover
                  disallowed costs;

           3.b.   Verify that VNH develops controls to ensure that member contracts are
                  signed before service hours are recorded; and



                                                  22
       3.c.   Ensure that VNH provides training that directs subgrantees to develop control
              procedures to use compelling personal circumstances only when consistent
              with the regulations, and to ensure that member contracts are correctly
              completed.

Commission’s Response

Regarding the “Pre-Contract Service Hours”, VNH stated that this was an oversight on
SCA’s part. Going forward, SCA will assure that members have signed their agreements
prior to starting service.

Regarding the “Compelling Personal Circumstances”, VNH believes that this was an error by
the Program Director, who did not file the document. VNH stated it is fully aware of
AmeriCorps requirements to document compelling personal circumstances.

Regarding the “Incorrect Contracts” issue, VNH stated that both of these were clerical errors
and that SCA will endeavor to review entries more thoroughly to reduce the incidence of
such errors.

Auditor’s Comment

The Corporation should consider the actions proposed by VNH and follow up to ensure that
they are implemented and effective.




This report is intended for the information and use of the Office of Inspector General,
Corporation management, the Commission, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Mayer Hoffman McCann P.C.
Bethesda, Maryland
April 17, 2009




                                             23
                                                                                         Exhibit B


          Consolidated Schedule of Recommendations and Questioned Costs


                                    Questioned Costs                          Funds Put to
Recommendation              Unallowable         Unsupported                    Better Use
1.a.                             $ 84,805            $150,004
3.a.                                                                                    $1,374



Questioned Cost means a cost that is unallowable because of:
   1. an alleged violation of a provision of a law, regulation, contract, grant, cooperative
       agreement, or other agreement or document governing the expenditure of funds;
   2. a finding that, at the time of the audit, such cost is not supported by adequate
       documentation; or
   3. a finding that the expenditure of funds for the intended purpose is unnecessary or
       unreasonable.

Unsupported Cost means a cost that is questioned because at the time of the audit, such cost is not
 supported by adequate documentation. Unsupported costs are included in the total of unallowable
 costs.

Recommendation that funds put to better use means a recommendation that funds could be used
 more efficiently if management takes actions to implement and complete the recommendation,
 including:
   1. reductions in outlays;
   2. deobligation of funds from programs or operations;
   3. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds;
   4. costs not incurred by implementing recommended improvements related to the operations of
       the establishment, a contractor or grantee;
   5. avoidance of unnecessary expenditures noted in preaward reviews of contract or grant
       agreements; or
   6. any other savings which are specifically identified.




                                                24
                              APPENDIX A


Corporation for National and Community Service’s Response to Draft Report
                                 NATIONAL &
                                 COMMUNITY
                                 SERVICHttt

To:            Stuart Axenfeld, Ins'pe<:~General for Audit

From:              g       sen                       s   anagement

Date:

SUbject:       Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
               Volunteer New Hampshire!


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to Volunteer New Hampshire! (VNH).
We will work with VNH to ensure its corrective action plan adequately addresses and
implements the findings. We will respond with the management decision after we have
reviewed the audit working papers and the VNH corrective action plan.

Cc:     William Anderson, Acting Chief Financial Officer for Finance
        Frank Trinity, General Counsel
        Kristin McSwain, Director of AmeriCorps
        Sherry Blue, Audit Resolution Coordinator
                   APPENDIX B


Volunteer New Hampshire’s Response to Draft Report
Finding 1- Volunteer NH
Improper Recording and Reporting of Costs

Volunteer NH uses a purchase order system that identifies the grant and the line item for that grant that
a cost will be taken from. If a cost is directly associated with a specific grant, the purchase order will
reflect that. However, for costs such as office supplies, rental of our water cooler, rental of our copier,
and the like…. Volunteer NH has specifically used the Administrative Grant to support these items and
has not supported these costs among all of our grants. This approach was established by the previous
Executive Director as a result of the 2001 audit. Costs were distributed among the different grants
based on total amount of all grants (Admin., PDAT, Disability) and the percentage each individual grant
contributed toward the total. This was deemed to be an incorrect process and KPMG felt the
administrative grant should provide the basic support for all grants. This process was instituted by the
previous Executive Director as a result of the 2001 audit and remained in place until this most recent
audit.

Costs were not allocated “randomly” to any of the three grants. If a cost had a direct association with a
grant, that cost was allocated to that grant. A computer used by the Training Director would come out
of PDAT.

Based on the guidance provided by the auditors, Volunteer NH has created a system to allocate indirect
costs to appropriate grants, including the non-corporation grant, based on staff hours attributed to
specific grants.

Unsupported Costs
Volunteer NH requested a spreadsheet of the exact questioned costs so we could continue to research
those costs. We have not received a spreadsheet to date.

Although receipts may not have been attached to the purchase order for payment, a description of the
cost with a cashed check are available, or a credit card statement identifying the purchase cost and
description as well. For each cash transaction, there is a purchase order that has appropriate back up
documentation. These purchase orders and backup are delivered to Granite State Management &
Resources (NH Higher Education Assistance Foundation) for payment and keeping records. Copies are
kept at Volunteer NH in paper form in three ring binders. Although there could be many reasons for
missing backup documentation, not having a financial officer as part of the Volunteer NH staff creates
an environment where energy is not dedicated to fiscal follow up which results in the occasional missing
backup documentation.

The Volunteer NH financial management system is a sound system and process. The Volunteer NH
Board of Directors has established a finance and audit committee that will be dedicated to provide the
additional oversight of the systems so information and documentation are provided immediately. This
will result in timely accuracy and not create an environment where time goes by without ensuring
information and documentation are provided.
Cost Reconciliation
This also will be a responsibility of the Finance and Audit committee as it appears the system is in place
and is generally a sound system. Where the system needs improvement is on the “follow-up” and
ensuring accuracy after information is recorded. Mistakes are not found because once things are
recorded they are not reviewed.

Payroll
As described earlier with indirect cost allocations, it was the practice based on the previous audit for the
administrative grant to provide the support to the other two. This includes the Executive Directors
salary as that position provides oversight to the other two grants.

Timesheets are required by Volunteer NH for all staff. However, an activity log has not been required
that would provide how salaries are allocated to different grants. From the guidance provided by the
auditors, Volunteer NH has created timesheets that identify grant allocations for salaries.

The Executive Director does provide oversight of the Citizen Corps program. With the Citizen Corps
funds, Volunteer NH contracts a Citizen Corps Director who is responsible to administer the Citizen
Corps program. The Executive Directors time is typically spent communicating with the Citizen Corps
Director, attending an occasional meeting or event, and being present at the Emergency Operations
Center when New Hampshire is affected by disaster as we represent State Emergency Support Function
“volunteers & donations.” The percentage of time dedicated to Citizen Corps is minimal and averages
out to approximately 4 hours per week. These 4 hours are provided above and beyond the 45 to 60
hours per week that are dedicated to the Corporations grants. Time spent on Citizen Corps was deemed
to be above and beyond the 40 hours per week provided to the Corporations grants and was also
viewed as meeting the “Bigger Role of the Commission.” Dedication 4 hours per week in meeting the
“Bigger Role of the Commission,” which is not part of the 40 hour work week, was viewed to be part of
the responsibility the Corporation expected out of state commissions.

As a result of the audit, Volunteer NH and the Department of Safety have agreed to having a portion of
the Executive Directors salary, based on 4 hours per week, to be attributed to the small Citizen Corps
grant.

Unused Member Support Costs
Provided by program(s).

Unallowable Costs
Provided by program(s)
Finding 2
Late Submissions of FSR’s, PER’s, Member Enrollment and Exit forms, Progress Reports.
Periodic Expense Reports are not subject to a Corporation timeline. PER’s are provided as the method
for programs to be reimbursed for program costs. Volunteer NH does require PER’s to be provided the
15th of each month so we can provide a timely reimbursement. However, some programs have
requested different PER reporting requirements, which have been approved.

Volunteer NH was found to have 12 of 12 PER’s submitted late. Volunteer NH is not required to submit
PER’s. We receive them from the subgrantees. Volunteer NH requested verification of this finding. We
have not received a response.

Grantee Financial Status Reports are provided by Granite State Management & Resources, Volunteer
NH’s Fiscal Agent. Some, if not most of the late Grantee FSR’s are attributed to lack of egrants
experience and knowledge. With the Finance and Audit committee this will also be one of the oversight
responsibilities which will improve our systems.

Volunteer NH did not find any late progress reports. An inquiry was sent to the auditors asking for
verification on this finding. We have not received a response.

Other information provided by the program(s).

Finding 3
Provided by the program(s)
                       APPENDIX C


Student Conservation Association’s Response to Draft Report
December 12, 2008


Mr. Darian Mims
Mayer Hoffman McCann P.C.
12761 Darby Brooke Court
Suite 201
Woodbridge, VA 22192

Dear Darian,

Attached are SCA’s responses to the potential findings as noted in your memo of
December 3, 2008.

Please feel free to contact me should you have any questions or concerns regarding the
attached. The original of this document will be forwarded to you by US Mail.

Thank you once again for a very efficient and straightforward examination engagement.
It was a pleasure working with you.

Regards,



Sharon M Mezzack
Controller
  Corporation for National and Community Service, Office of Inspector General
                      Audit of Volunteer New Hampshire!
                 Subgrantee: Student Conservation Association
                  Audit Period: April 1, 2006 – March 31, 2008

                          Summary of Potential Findings


Member Testing

PY 2005-2006

   1. One of the five members reviewed was given a partial education award, but did
      not have any compelling personal circumstances noted. We questioned this
      member’s education award of $1,374.
          Member:

SCA Response:
We believe that this was an error on the Program Director’s part.
            clearly intended to serve as a quarter time member, and the SCA staff
clearly intended to record him as a quarter time member.
start and end dates are the same as the others serving quarter time that year.
We believe that the Program Director mistakenly entered            in WBRS as a
full-time member, and also mistakenly recorded him as a partial education award.
SCA is fully aware of AmeriCorps requirements to file compelling personal
circumstances, and this document was not filed.

Going forward, SCA will continue to make clear to field staff and members what
comprises compelling personal circumstances to ensure that an error of this kind
does not occur again.

   2. Two of the five member reviewed did not have the proper enrollment type
      documented in the service agreement. One member’s service agreement stated
      that the member was enrolled in a half-time capacity, but WBRS indicated that
      the member was enrolled in a full-time capacity. The other member’s service
      agreement stated that the member was enrolled in a quarter-time capacity, but
      WBRS indicated that the member was enrolled in a full-time capacity.
          Member:


SCA Response:
Both of these were clerical errors. SCA will endeavor to review entries more
thoroughly to reduce the incidence of such errors.
   3. An end-of-term/exit form was not submitted in a timely manner for one of the five
      members reviewed. This member’s end-of-term/exit form was submitted more
      than 30 days after the member completed service.
          Member:                       (4 days late)

SCA Response:
The NHCC Program Director who served at this time is not a current employee of
SCA, and we were not able to determine why the exit form was completed after
the deadline. SCA, however, is a aware of the 30 day window after completion of
service, and will continue to provide the appropriate training to our Program
Directors in fulfilling this requirement and using AmeriCorps’ technical systems
provided to do this.

PY 2006-2007

   1. End-of-term/exit forms were not submitted in a timely manner for six of the seven
      members reviewed. These members’ end-of-term/exit forms were submitted
      more than 30 days after the members completed service.
         Member:                      (10 days late)
                                  (24 days late)
                                   (11 days late)
                                     (10 days late)
                                  (10 days late)
                                (10 days late)

SCA Response:
SCA understands the AmeriCorps requirement for exiting members from WBRS
within the 30 day period following their last day of service. This was an oversight
on SCA’s part. Moving forward, SCA will continue to provide the Program
Directors with training to assure compliance to this AmeriCorps requirement.

PY 2007-2008

   1. One of the five members reviewed signed the member service agreement after
      their start of service date.
          Member:

SCA Response:
SCA understands the AmeriCorps requirement for having members sign their
service agreement prior to starting service. This was an oversight on SCA’s part.
Going forward, SCA will assure that members have signed their agreements prior
to starting service. SCA has further streamlined the member paperwork
processes over the course of the last year, including improved electronic tracking
systems, so that staff in the field programs can have more up-to-date access to
information on member paperwork received.
   2. Enrollment forms were not submitted in a timely manner for four of the five
      members reviewed. These members’ enrollment forms were submitted more than
      30 days after the members’ start dates.
          Member:               (20 days late)
                                   (20 days late)
                                  (20 days late)
                                      (20 days late)

SCA Response:
This was due to a misunderstanding of the technical process in WBRS on the
SCA NHCC Program Director’s part. He was aware of the time line for WBRS
enrollment entries and entered in their enrollment forms as per that schedule. He,
however, must not have understood the need to “approve” their submission, as
well as enter them. Moving forward, SCA will be sure the Program Director is
informed of the need to both enter and approve the WBRS entries.

Cost Testing

PY 2005-2006

   None

PY 2006-2007

   One of the 20 transactions reviewed was for equipment/supplies greater than $5,000,
   and not specifically included in the approved budget or subsequently approved in
   writing by the Corporation prior to the purchase. This purchase was for a plow truck
   for $8,000 ($3,840 Federal share and $4,160 grantee share). We questioned this
   amount.

SCA Response:
In 2006, SCA’s primary partner for this program, NH State Parks, informed SCA
that, due to financial difficulties they were facing, they would no longer be able to
cover the cost of plowing the 3 mile road to the residential site where members
and staff were housed. In order to implement the program and ensure the safety
of members and staff, it was essential to either purchase a plow truck or pay a
private entity to plow the road. Due to the length of the road, the prior option was
more financially viable. SCA purchased the plow truck, and allocated part of the
cost to the Corporation. At the time, the cost was believed to have been covered
in the budget under rent and utilities, but the required written approval does not
appear to have been requested. Despite this issue, the cost was an allowable
program cost. In the future, SCA will ensure that proper written approval is
obtained from the Corporation prior to any non-budgeted equipment or supply
purchase exceeding $5,000.
PY 2007-2008

   None

Other Compliance

PY 2005-2006
   1. SCA exceeded the Federal Section I (Program Operating Costs) budget by
      $8,975. SCA used unused Section II (Member Costs) funds for program
      operating costs. We questioned this amount.

SCA Response:
This occurred due to a misunderstanding of allowable budget variances. The
person responsible for preparing the PER for that period understood that a
budget variance of 10% or less was allowed without written approval by the
Corporation, but apparently did not realize that funds could not be reallocated
between Section I (Program Operating) and Section II (Member) costs.

SCA will ensure that any staff responsible for preparing the quarterly PERs
understands that reallocation of monies between Sections is not allowed without
prior written approval of the Corporation.

PY 2006-2007

   None


PY 2007-2008

   None
                             APPENDIX D


Coalition Against Domestic & Sexual Violence’s Response to Draft Report
2005 -2006
   1.                 (1 day late) and                  (2 days late) Member Service
       Agreements were late due to waiting for a Host Site Supervisor to sign. Despite
       all members and AVAP staff signing the agreement on the first day of their
       service, we waited for all signatures. We incorrectly believed that we had to wait
       for the Host Site Supervisor to sign the agreements before “entering” the
       members.                      Member Service Agreement was late for the same
       reason but was complicated by the fact that she worked at a remote site
                 ). In addition, she had two Host Site supervisors at two other sites (one
       in Laconia, NH and one in Concord NH).
   2.                  Enrollment form was late due to late Host Site signature on her
       Member Service Agreement. (see 1 above)
   3.                 had an end of the term /exit evaluation but it was dated July 17,
       2006. During this time period (Mid June – September 2006) AVAP was without a
       Program Coordinator. I was the only staff and was doing two full-time jobs. In
       order to try to keep on top of all the 2005-2006 end of the year needs as well as
       recruitment and training for 2006-2007, I sent out the End of the Year Evaluations
       a bit early. I did not realize (since there is no timeline in the Provisions) that I was
       sending them out “too early” according to the auditors. I was trying to make sure I
       stayed on top of all the requirements

2006-2007
   1. Again, Member Service Agreements were late due to waiting to have Host Site
      Supervisors sign off on them.
   2. Member Enrollment forms were late due to waiting for Member Service
      Agreement forms to be signed by Host Site Supervisors.
   3.          Page’s End of the Term/Exit form was late due to attempting repeatedly
      to get missing timesheets and other paperwork from her.
   4.                was placed at a police department. The police department took 4
      months to do a background check on her. Since the background check was not
      completed by the time she started her service with them, they refused to sign the
      agreement. The member got upset with the issues they brought up from her past
      while doing the background check and left the program before any paperwork
      could be completed.

   2007-2008
   1. Again, both Member Service Agreements were late due to waiting for Host Site
      signatures.
   2. The Enrollment form was late due to a late Member Service Agreement being
      signed by the Host Site Supervisor.
   3.                 End of Term/Exit form was submitted late because we were
      waiting for missing timesheets and other paperwork. Despite repeated requests
      and promises that it was going to be delivered it did not arrive. I finally exited her
      for cause and did not allow her to receive an Education Award.
